SUPREME COURT OF THE UNITED STATES

ERON SPIVEY,
Petitioner,
Vs.

t

>

! i
t

f

s.j

%

•i

: rl

i

■

j

r

t
* i

.. 'J

STATE OF TEXAS,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
Texas Court of Criminal Appeals

PETITION FOR A WRIT OF CERTIORARI ,

#02148007
Eron Spivey, Pro Se
Telford Unit 3899
St. Hwy. 98
New Boston, TX 75570

FILED
NOV 1 9 2020
supre^FcTourtLmsK

I. Questions Presented
Do authorities violate the Fourth Amendment when they
1.
involuntarily detain, in back of a patrol car for three
hours, then at the police station for two hours to question
about an unsolved crime?
If the state fails to prove probable cause, or meet
2.
the requirements under Wong Sun dealing with statements
obtained following an illegal arrest, does the exclusionary
rule apply to those statements?
II. Table of Contents
I.
II.
III.
IV.
V.
VI.
VII.
VIII.

IX.

X.
XI.

1
Questions Presented...
Table of Contents...... ,ii
iii
Table of Authorities
1
Petition for Writ of Certiorari
1
Opinions Below
Jurisdiction.... 1
Constitutional Provisions Involved
.2
Statement of the Case Statement of the Case........ 3
1. The seizure, transportation and custodial
4
interrogation Statement of the Case
4
2. The trial court's findings
Reasons for Granting the Writ........ 6
A. To avoid erroneous deprivation of the
Fourth and Fifth Amendments, this
court should clarify the standard of
Probable Cause and the requirement
that applies when one is questioned in
6,7,8,9
police custody...
Conclusion........ 9
Appendix........10
III. Table of Authorities
Cases
Brown v, Illinois, 95 S.Ct. 2254...... .8
7, 8
Davis V. Mississippi, 89 S.Ct. 1394
Dunaway v. N.Y., 99 S.Ct. 2248.... .3,7,8
8
Hayes v. Florida, 105 S.Ct. 1647
Miranda v. Arizona, 384 U.S. 444
3
Smith v. Wenderlich, 826 F.3d 649 (2nd Cir.
6
2016)
8,9
Wong Sun v. U.S., 83 S.Ct. 407

Statutes
28 U.S.C. Sec. 1257

1

Constitutional Provisions

United States Constitution, Amendment IV.
United States Constitution, Amendment V...

2
.2

IV. Petition for Writ of Certiorari
Eron Spivey #02148007, an inmate currently incarcerated at
the Texas Department of Criminal Justice in New Boston,
Texas, by and through pro se, respectfully petitions this
court for a Writ of Certiorari to review the judgment of
the Texas Court of Criminal appeals.
V. Opinions Below
The decision by the Court of Criminal Appeals of Texas
denying Mr. Spivey's habeas corpus is reported as Spivey v.
State, WR-91, 3901-01 August 19, 2020.
VI. Jurisdiction
Mr. Spivey's habeas corpus was denied on August 19, 2020.
Mr. Spivey invokes this court's jurisdiction under 28
U.S.C. Sec. 1257, having timely filed this Petition for a
Writ of Certiorari within ninety days of the Court of
Criminal Appeals of Texas Judgment.
VII. Constitutional Provisions Involved
United States Constitution, Amendment IV.
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable searches
and seizures, shall not be violated, and no warrants shall
issue but upon probable cause, supported by oath or
affirmation, and particularly describing the place to be
searched, and the persons or things to be seized.
United States Constitution Amendment V.
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or

indictment of a Grand Jury, except in cases arising in the
land or naval forces, or in the militia when in actual
service in time of war or public danger; nor shall any
person be subject for the same offense to be put twice in
jeopardy of life or limb; now shall be compelled in any
criminal case to be a witness against himself, now be
deprived of life, liberty, or property, without due process
of law; nor shall private property be taken for public use,
without just compensation.
Statement of Case
Over 50 years ago, this court held in Miranda v. Arizona,
that "the state may not use any statements stemming from a
'custodial interrogation' of the defendant unless it
demonstrates the use of procedural safe guards effective to
secure the privilege against self-incriminations." 384 U.S.
at 444 this court specifically defined "custodial
interrogation" as questioning initiated by law enforcement
officers after a person has been taken into custody. Id
In Dunaway v. NY, this court held "Police violate the
Fourth Amendment when, absent probable cause or the
individual's consent, they seize and transport a person to
the police station and subject him/her to prolonged
interrogation. 99 S.Ct. 2248
This case presents the questions of when law enforcement
initiate questioning with a custodial detainee, is it a
prerequisite to administer Miranda warnings. Furthermore,
does seizing an individual for investigative preservation
satisfy the probable cause standard.
1. The Seizure, Transportation and Custodial Interrogation
On December 7th, 2015, Eron Spivey was taken into custody
by Grand Prairie Police. Mr. Spivey was held in the back of
the patrol car for about three hours, then was transported
to the police station and interrogated for approximately
three hours. Petitioner was never read his Miranda
warnings, and made incriminating statements during the
interrogation. On January 19th 2016, Petitioner was
arrested and charged with capital murder. Mr. Spivey was
arraigned and appointed counsel. Nevertheless, counsel
never challenged the admissibility of the statements made,
went to trial and was convicted of capital murder. He was
sentenced to life without the possibility of parole.

2. The Trial Court's Findings
On his writ of Habeas Corpus, Mr. Spivey argued the
admissibility of the statements, and that his Fourth
Amendment rights were violated. The trial court concluded
that Mr. Spivey was not under arrest at the time he made
the statements, The court went on to hold that since
counsel pre-trial was to use the statements and the
discussion of those statements with Petitioner at trial was
held to attenuate the violation. This decision by the
court is plainly incorrect, as it contradicts the
traditional standards this court carefully crafted and has
spent almost 50 years developing.
IX. Reasons for Granting the Writ
A. To avoid erroneous deprivation of the Fourth and Fifth
Amendments, this court should clarify the Standard of
Probable Cause and the requirement that applies when one is
questioned in police custody.
The Court of Criminal Appeals has decided an important
Federal question that conflicts with relevant decisions of
this court. Since the court of last resort ruled that
Petitioner 1. Was not under arrest when he made
incriminating statements, so there was no basis for a
motion to suppress, 2. Counsel discussed the use of the
statements as trial strategy was held to attenuate the
violation of his constitutional rights. This ruling is
erroneous and clearly in conflict with clearly established
law by this court. "A State's court decision is 'contrary'
to such clearly established law when the state court has
decided a case differently than the Supreme Court has on a
set of materially indistinguishable facts." Smith v.
Wenderlich, 826 F.3d 649 (2d cir. 2016). This court has
decided beyond debate that "the application of the Fourth
Amendment requirement of Probable Cause does not depend on
whether an intrusion of this magnitude is termed an
'arrest' under State Law." Dunaway v. NY, 99 S.Ct 2245
This decision was established on the facts, absent Probable
Cause or the individual's consent, police seize and
transport a person to the police station for interrogation
regardless of its label. Several material facts in
Petitioner's case are indistinguishable from the treatment
this court has condemned. "The treatment of Petitioner,
whether or not it is technically characterized as an
"arrest" must be supported by "Probable Cause." Davis v.

Mississippi, 89 S.Ct 1394 "The court reaffirmed the general
rule that an official seizure of the person must be
supported by Probable Cause, even if no formal "arrest" is
made. Dunaway v. NY 99 S.Ct 2248 The statements were
induced by the continuing effects of unconstitutional
custody, although there are differences, such differences
in form must not be exalted over substance. Petitioner was
seized and held for approximately three hours in a patrol
car, transported to the police station; once in the station
Petitioner was taken to an interrogation room and his
experience fits equally with this court's condemnation of
police conduct in Davis v. Mississippi 89 S.Ct 1394, Hayes
v. Florida, Brown v. Illinois, and Dunaway v. NY. The state
failed to sustain the burden of showing that the evidence
in question was admissible under Wong Sun, The State Court
of last resort has refrained from resolving the question
whether the statements obtained by the exploitation of his
illegal arrest. If the state's ruling were to be upheld,
this would in fact mean that the Fourth Amendment Probable
Cause Standard would be substantially diluted. In other
words police could seize a person without Probable Cause, a
warrant, or the individual's consent, transport him to the
station, interrogate him and have the State justify the
actions by simply stating a petitioner wasn't under arrest.
Moreover, the State would not have to meet the requirement
recognized by this Court under Wong Sun, or the most wanton
reason that counsel could not raise the issue over a course
of years, talk to his client about the use of the
incriminating statements who has no knowledge of law,
resume trial and justify his ineffectiveness on the ground
trial strategy.
The Fourth Amendment's Standard of Probable Cause and the
requirement to meet under Wong Sun are well understood and
comprehended in existing law. This Court should exercise
its discretionary jurisdiction to clarify the Probable
Cause Standard of the Fourth Amendment, and the requirement
recognized by this court under Wong Sun. Furthermore, to
address the question when authorities involuntarily detain
an individual, transport him to the station, interrogate
him without probable cause on the ground he passed
information about an unsolved crime constitute an
unreasonable seizure? Despite the clarity this court has
presented under an appropriate Fourth Amendment analysis,
the present case is a textbook example of the
unconstitutional police practices that prompted the rulings
of this Court on this matter.

X. Conclusion
For the foregoing reasons, Mr. Spivey respectfully requests
that this Honorable Court grant his certiorari to review
the judgment of the Court of Criminal Appeals of Texas.
Respectfully Submitted

Eron Spivey Pro Se
Telford Unit 3899 Hwy. 98
New Boston, TX 75570
XI. Appendix
Court of Criminal
Appeals of Texas Opinion,
Spivey v. State, WR-91,390-01
August 19, 2020
Court of Appeals Second Appellate
District of Texas at Fort Worth,
Spivey v. State, No.02-17-00238-CR
April 25, 2019

Declaration of Service
On November 30, 2020 a true and correct copy of the
foregoing Appellant's Petition for Writ of
Certiorari was delivered to the following:
1. Shelby J. White
Assistant Criminal District Attorney
Tim Curry Criminal Justice Center
401 West Belknap
Fort Worth, TX 76196
2. Court of Criminal Appeals of Texas
P.O. Box 12308 Capitol Station
Austin, TX 78711

